<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
                         [H.A.S.C. No. 115-87]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                    FISCAL YEAR 2019 BUDGET REQUEST

                         ON AIR FORCE AIRBORNE

                      INTELLIGENCE, SURVEILLANCE,

                      AND RECONNAISSANCE PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 15, 2018

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-491                     WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     JIMMY PANETTA, California
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
                 Heath Bope, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Dolan, Lt Gen John L., USAF, Director of Operations (J3), 
  Headquarters, Chairman of the Joint Chiefs of Staff............     7
Harris, Lt Gen Jerry D., Jr., USAF, Deputy Chief of Staff for 
  Strategic Plans and Requirements (A8), Headquarters, U.S. Air 
  Force..........................................................     5
Ierardi, LTG Anthony R., USA, Director, Force Structure, 
  Resources, and Assessment (J8), Headquarters, Chairman of the 
  Joint Chiefs of Staff..........................................     6
Thornton, Susan J., Director for Information Dominance Programs 
  (SAF/AQI), Office of the Assistant Secretary of the Air Force 
  for Acquisition................................................     6

                                APPENDIX

Prepared Statements:

    Harris, Lt Gen Jerry D., Jr., joint with Susan J. Thornton...    30
    Ierardi, LTG Anthony R., joint with Lt Gen John L. Dolan.....    44
    Turner, Hon. Michael R.......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................    55
    
    
.    
  FISCAL YEAR 2019 BUDGET REQUEST ON AIR FORCE AIRBORNE INTELLIGENCE, 
               SURVEILLANCE, AND RECONNAISSANCE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Thursday, March 15, 2018.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order.
    The subcommittee meets today to receive testimony on 
airborne intelligence, surveillance, and reconnaissance [ISR] 
programs contained in the Air Force's fiscal year [FY] 2019 
budget request.
    I want to welcome our witnesses today for today's panel: 
Lieutenant General Jerry Harris, Air Force Deputy Chief of 
Staff for Strategic Plans and Requirements; Ms. Susan Thornton, 
a member of the Air Force's Senior Executive Service and 
Director of Air Force Information Dominance Acquisition 
programs; Lieutenant General Anthony Ierardi, a Director of 
Force Structure, Resources, and Assessment for the Chairman of 
the Joint Chiefs of Staff; and Lieutenant General John Dolan, 
Director of Operations for the Chairman of the Joint Chiefs of 
Staff. You all have really long titles.
    We thank all of you for your service and for being with us 
today. And after reviewing the Air Force's fiscal year 2019 
budget request, the subcommittee is somewhat satisfied with its 
content and funding levels provided for the airborne ISR 
enterprise. The budget request appears to support what is 
needed to sustain the legacy fleet of ISR programs, but the 
subcommittee is disappointed that there is no significant 
capacity growth in the Air Force's ISR portfolio to meet more 
airborne ISR requirements.
    ISR is the pacesetter for operations. In short, ISR is a 
combat multiplier that not only informs our commanders where 
they need to engage, but also where not to engage and what 
areas to avoid. With the exception of full motion video [FMV] 
capability provided for counterterrorism support, there appears 
to be stagnation in the remainder of the ISR portfolio for 
other critical intelligence needs. This situation--stagnation 
maintains the ISR capacity shortfall and should be reversed to 
fill more combatant commanders' intelligence requirements.
    We understand that we cannot afford to satisfy all 
combatant commander ISR requirements, but consistently we see, 
year after year, ISR fulfillment rates for critical 
intelligence areas in single-digit percentages and with higher 
risk than there should be. It seems that if there is not more 
effort within all of the services to achieve more ISR capacity 
for our combatant commanders, that we will have a continued 
shortfall.
    I am pleased, however, to see that the Air Force has 
finally removed the uncertainty regarding the high-altitude ISR 
capability that the U-2 and RQ-4 Global Hawk provide, and that 
both platforms will be sustained and modernized well into the 
future.
    There is one major point of contention in the budget 
request that we will need to work through, but I am confident 
that we will reach a satisfactory compromise: the Joint 
Surveillance and Target Attack Radar System Recapitalization 
program, also known as JSTARS Recap, and the Air Force's 
decision to terminate this program on essentially the eve of 
the source selection decision; the Air Force's request to 
forego JSTARS Recap program in favor of fielding a concept 
called Advanced Battle Management System, or ABMS.
    At the moment, there appears to be multiple disconnects 
with this concept, and I want to highlight a few that stand 
out. First and foremost, the new concept appears to contradict 
the years of extensive analysis and testimony to Congress that 
underpin the current validated requirements. From as early as 
December 2011, when the Air Force completed its analysis of 
alternatives [AOA], to as late as August 2016, when the Joint 
Requirements Oversight Council [JROC] validated the JSTARS 
Recap capability development document, which is the document 
that justifies how and why a platform is being designed against 
a validated requirement, all conclusions pointed to a 
capability consisting of a business jet-sized aircraft with a 
reduced crew that would provide, at the tactical edge of the 
contested battlefield, onboard, real-time battle management 
command and control [BMC2] and moving target indicator 
intelligence to the warfighter maneuvering on the ground.
    These years of analysis were molded against anti-access/
area denial threats per the previous administration's defense 
strategy of 2012, which identified that states such as China 
and Iran will continue to pursue asymmetrical means to counter 
our power projection capabilities, while the proliferation of 
sophisticated weapons and technology will extend to non-state 
actors as well. Accordingly, the U.S. military will invest, as 
required, to ensure its ability to operate effectively in anti-
access/area denial environments.
    There is not enough time to go through all the analysis 
completed by many entities within the Department [of Defense], 
but the committee staff provided a comprehensive summary to 
each member's office outlining specific details.
    Second, the Air Force plans to rely upon unmanned aircraft 
capabilities and sensors in increment [INC] 1 of ABMS that the 
analysis of alternatives has already determined would not meet 
full-spectrum requirements, for the Air Force now wants to rely 
upon the airborne warnings and control systems, or AWACS 
[Airborne Warning and Control System], aircraft to do battle 
management command and control for ground forces in addition to 
its primary mission of providing battle management command and 
control for airborne forces, all without increasing the crew 
size or adding additional mission spaces onboard the aircraft 
to effectively perform this mission because the aircraft has no 
physical growth capacity.
    Third, ABMS is not forecasted to reach initial operational 
capability until 2035, which is 11 years after JSTARS Recap 
would begin fielding. ABMS is not forecasted to reach full 
operational capacity until 2042, which, theoretically, is 6 
years prior to when JSTARS Recap is scheduled to begin 
retirement. This schedule, of course, assumes that everything 
goes as planned and that all technologies and capabilities with 
the ABMS, many of which are still yet to be developed, are 
fielded without any issues.
    Finally, JSTARS Recap aircraft is being designed as a true 
open architecture, open mission systems capability with a 
highly advanced fifth-generation radar and robust communication 
and battle management command and control suite of 
capabilities. This is a hallmark example of acquisition reform 
that this committee's been pushing, and it does not make sense 
why this capability is not being used as the foundation for the 
ABMS concept.
    As we move forward in understanding the ABMS concept, we 
also need to understand where the risks to the warfighter lie 
and what risk mitigation paths we can take in the near and mid 
term to ensure that the validated requirements of the ground 
warfighter are met without question.
    To put this all in perspective, we understand the projected 
threats to our forces are real and that the Air Force has 
submitted a budget that does not include JSTARS Recap. However, 
completely walking away from this program may prove to be an 
unacceptable level of risk to our warfighters for this 
committee. As we continue to build the FY 2019 NDAA [National 
Defense Authorization Act], we hope to learn more, and look 
forward to working with the Air Force on a path forward that 
will both mitigate risks to the warfighter and invest in the 
new Air Force programs that the Air Force is proposing.
    I will now turn to my good friend from Massachusetts, Ms. 
Niki Tsongas, for her comments that she might want to make.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 27.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman. And good afternoon to 
our witnesses. It is good to have you here. I would like to 
thank you for being here today to talk about the several Air 
Force intelligence, surveillance, and reconnaissance programs.
    As the chairman has pointed out, ensuring that the Air 
Force preserves and expands the support it provides to the 
joint force in this mission area has been an ongoing concern 
for the subcommittee for many years. The United States has the 
world's largest and most advanced airborne reconnaissance 
fleet. The question for Congress is, in my view, how do we keep 
it that way and make it even better?
    This capability does not, of course, come cheap. Continued 
investment in the platforms, sensors, data networks and, 
importantly, the people across the ISR community is required. 
It is not surprising, then, that the cost of this enterprise 
creates tension inside the Air Force's budget. And while some 
tradeoffs with other important Air Force missions are 
appropriate, all too often, this mission area appears to be 
viewed as a bill payer for other Air Force needs.
    In addition, there is some important recent history with 
the Congress in this area. Since I joined this committee, the 
Air Force has proposed retiring the U-2 and Global Hawk fleets. 
In both cases, Congress blocked these plans based primarily on 
concerns about overall ISR capacity and constant shortfalls in 
this mission area.
    In the end, in both cases, Congress concluded that the Air 
Force's request to retire these platforms was the result of a 
narrow, short-term, purely funding-driven view that failed to 
account for an ever-growing demand for ISR on behalf of our 
combatant commanders around the world. That is important 
context for today's hearing.
    The fiscal year 2019 request for Air Force programs in this 
area is, overall, quite well funded. Continued investments in 
the U-2, RQ-4 Global Hawk, RQ-9 Reaper, RC-135 reconnaissance 
aircraft, and E-3 Sentry fleets look healthy compared to recent 
requests. There is also funding for the ground-based side of 
the ISR enterprise. There is, however, one important exception 
to this overall positive trend: the proposed termination of the 
JSTARS replacement program.
    As we will hear more about today, the Air Force plans to 
cancel the JSTARS replacement program in order to develop a 
decentralized network capability to integrate sensors across 
many platforms. This decision deserves close consideration for 
several reasons.
    First, while the Air Force knows its decision is based on 
new threats, those very same threats were considered in 2011 
when the DOD [Department of Defense] conducted an analysis of 
alternatives that led to the JSTARS replacement program.
    Second, those same threats cited by the Air Force are a 
danger to any non-stealth aircraft in the early stages of a 
conflict, yet the Air Force is not proposing mass retirements 
of fourth-generation fighters or even other reconnaissance 
aircraft based on commercial aircraft, such as the E-3 AWACS, 
KC-46 tanker, RC-135 Rivet Joint, or Compass Call.
    Third, the Air Force appears to be walking away from the 
joint in joint--in JSTARS. The origin of the original E-8 
JSTARS fleet was a desire to integrate with U.S. Army sensors 
and weapons to attack targets behind enemy lines. The Air 
Force's proposal to terminate this program sends a message to 
the U.S. Army that the Air Force is no longer prioritizing this 
mission.
    Fourth, the Air Force appears to have discounted the risks 
involved with their alternative network-based plan. 
Specifically, the time risk, the cost risk, and potential 
vulnerability of such a network to jamming or cyberattack.
    Finally, the Air Force is once again proposing to shrink 
the size of the airborne ISR fleet at the same time that 
demands continue to rise. This committee has rejected the Air 
Force's last two proposals to do the very same thing.
    I look forward to today's hearing and yield back.
    Mr. Turner. Thank you.
    I ask unanimous consent that non-subcommittee members be 
allowed to participate at today's hearing, after all 
subcommittee members have had an opportunity to ask questions. 
Without objection, so ordered.
    I also want to remind members that immediately following 
adjournment of this hearing, we will reconvene in Rayburn 2337 
for a classified presentation by our witnesses.
    Without objection, each of the witnesses' prepared 
statements will be included in the hearing record. We will 
begin with General Harris.
    General.

STATEMENT OF LT GEN JERRY D. HARRIS, JR., USAF, DEPUTY CHIEF OF 
STAFF FOR STRATEGIC PLANS AND REQUIREMENTS (A8), HEADQUARTERS, 
                         U.S. AIR FORCE

    General Harris. Thank you, Chairman Turner, Ranking Member 
Tsongas, and distinguished members of the subcommittee. Thank 
you for the opportunity to testify again. And I am glad our 
engagements continue in both frequency and qualitative content 
as they are very beneficial to the Department of the Air Force.
    Today, there may be questions that lead to classified 
answers, to which we will be happy to continue on our scheduled 
closed session rather than talk around a correct answer in this 
open session.
    The United States Air Force now operates several 
intelligence, surveillance, and reconnaissance, or ISR, 
capabilities across many domains. This hearing is focused on 
the air domain, and the witnesses you have invited appearing 
here are, clearly, experts that can speak to our joint 
requirements and operations, as well as our Air Force 
modernization plans.
    The National Defense Strategy published in January of this 
year highlights the importance of competing and winning at all 
levels of engagement, above and below the level of armed 
conflict. The same strategy also tells us to focus on the high-
end side of the combat spectrum and gives us some areas to take 
risk. Most of these risk discussions will need to take place in 
our already scheduled closed session.
    To understand the situation and make decisions to keep the 
United States and our joint forces ahead of our adversaries, we 
must maintain a robust and survivable network of ISR systems 
that will ensure our competitive advantage. This means we must 
not only collect the information, but we must also process, 
exploit, and disseminate it.
    Additionally, we must protect the information and ensure 
that it is accurate, reliable, and of decision quality. This 
soup-to-nuts effort was the focus for the ISR portion of our FY 
2019 budget.
    We appreciate the continued support of the Tactical Air and 
Land Forces Subcommittee, and we look forward to your 
questions.
    Mr. Turner. Ms. Thornton.
    [The joint prepared statement of General Harris and Ms. 
Thornton can be found in the Appendix on page 30.]

   STATEMENT OF SUSAN J. THORNTON, DIRECTOR FOR INFORMATION 
DOMINANCE PROGRAMS (SAF/AQI), OFFICE OF THE ASSISTANT SECRETARY 
                OF THE AIR FORCE FOR ACQUISITION

    Ms. Thornton. Chairman Turner, Ranking Member Tsongas, and 
distinguished members of the Tactical Air and Land Forces 
Subcommittee, it is an honor to appear before you today to 
discuss the Air Force's fiscal year 2019 budget request for 
airborne intelligence, surveillance, and reconnaissance 
programs.
    In my capacity as the Director of Information Dominance 
Programs, I have the distinct pleasure of supporting the 
modernization activities the Air Force is accomplishing to put 
cutting-edge ISR capabilities in the hands of our warfighters. 
From the applications used for planning airborne campaigns 
resident within our air operation centers, to the intelligence-
gathering and strike capabilities on the MQ-9 remotely piloted 
aircraft, the Air Force's ISR programs are critical to 
providing the combatant commanders with the capability needed 
to support and engage in combat, drug interdiction, and 
humanitarian operations across the globe.
    I hope our discussions today will provide the committee 
with a greater understanding of the direction the Air Force is 
taking to modernize our ISR assets. Your support is paramount 
to ensuring the Air Force has the funding needed to keep our 
ISR portfolio viable and ahead of adversarial threats and 
enhancements.
    I thank you for taking the time to have these discussions 
and for your continued support of these critical capabilities.

   STATEMENT OF LTG ANTHONY R. IERARDI, USA, DIRECTOR, FORCE 
   STRUCTURE, RESOURCES, AND ASSESSMENT (J8), HEADQUARTERS, 
             CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    General Ierardi. Chairman Turner, Ranking Member Tsongas, 
and distinguished members of the subcommittee, I am grateful to 
have the opportunity to appear before you today to discuss the 
critical importance of airborne intelligence, surveillance, 
reconnaissance as we face the reemergence of long-term 
strategic competition.
    One of the key capabilities that has supported U.S. 
military dominance for many years is the Joint Surveillance 
Target Attack Radar System, also known as JSTARS. For the last 
several years, the Air Force has been working on an effort to 
recapitalize this platform. While the ability to collect ground 
moving target indicator [GMTI] data and to conduct battle 
management command and control remain key joint force 
requirements, changes in the threat mean JSTARS Recap will be 
challenged to satisfy these requirements in a highly contested 
wartime environment.
    In December of last year, the Joint Requirements Oversight 
Council acknowledged the validity of the existing JSTARS Recap 
requirements, but also recognized the evolving threats and 
contested environments as an imperative for change, requesting 
the Air Force return to the JROC by April, next month, of 2018, 
with options for providing these capabilities in both 
permissive and non-permissive environments.
    Turning to the broader ISR enterprise, we note that ISR 
demand continues to outstrip supply, but continued investment 
and additional capacity alone will not reverse this trend. 
Adaptation and innovation in the development and employment of 
ISR capabilities will be key to ensure we have the ability to 
collect the right information, connect the right dots, and to 
get the critical information to the right people in a timely 
fashion.
    Thank you for the opportunity to be here today and, more 
importantly, for your continued support for these vital 
programs which support the Department's enduring mission to 
provide combat-credible military forces needed to deter war and 
protect the security of our Nation. Thank you.
    [The joint prepared statement of General Ierardi and 
General Dolan can be found in the Appendix on page 44.]

STATEMENT OF LT GEN JOHN L. DOLAN, USAF, DIRECTOR OF OPERATIONS 
   (J3), HEADQUARTERS, CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    General Dolan. Chairman Turner, Ranking Member Tsongas, and 
distinguished members, I want to thank you for the opportunity 
to be here to discuss the Chairman's Joint Chief of Staff's 
global integration efforts as we look to meet the increasing 
requirements against the Nation's strategic competitors and 
violent extremist organizations. I look forward to the follow-
on discussion and any other questions you may have. Thank you 
very much.
    Mr. Turner. Thank you for your testimony.
    You know, obviously, you heard from both of our opening 
statements that there are significant issues and concerns by 
the committee. The subcommittee has heard dueling testimony on 
a number of systems, and this seems to be like one of them, 
where we are told we absolutely have to have the capability and 
then we don't need to have the capability anymore, we need to 
switch to a different capability, which is not yet completed or 
defined. That leaves us with not a whole lot of confidence in 
transitioning to the next stage.
    The Secretary of the Air Force is very eloquent when she 
talks of, you know, her initial time here in Washington where 
she was at the National Security Council, and she would grab a 
taxi to go around town. And now, she has an iPhone, and as 
Secretary of the Air Force has the technology of Uber, and she 
wants to make certain that the Air Force has the ability to 
lean in for that technology.
    But as she and I have discussed, taxis are still on the 
road. So it is reaching that new technology without abandoning 
technology. If we all got rid of all taxis and just went to 
Uber, we wouldn't have the efficient transportation system we 
have in our urban areas. And certainly, when you look at the 
arguments to abandon JSTARS, you are left with that sense that 
perhaps the stretch for a new technology isn't being correctly 
evaluated in the terms of what our true needs remain.
    Now, one concern that we stated in our opening was the Air 
Force's ABMS concept is not scheduled to achieve initial 
operational capability until 2035. Let's just pause for a 
moment on that number: 2035, initial operational capability. 
And full operational capability until 2042. How do you plan to 
mitigate BMC2 risk for the joint warfighter on the ground if 
JSTARS Recap is not fielded and ABMS does not reach full 
operational capacity until 24 years from now?
    You know, when we all think of--back to the Secretary's 
analysis of technology and the analogy to the iPhone, the 
iPhone has only been with us for 11 years. And this isn't going 
to reach full operational capacity until 24 years from now, but 
yet we are going to lose a capability if we don't pursue 
modernization recapitalization of JSTARS at the same time that 
we reach for new technology.
    So, General Dolan, explain that gap. Explain how we are 
going to be able to evaluate what this effect is going to be on 
the battlefield and what we need to do in the upcoming NDAA.
    General Dolan. Well, Chairman, I can tell you, from the 
perspective of a requirement, we will always have a requirement 
to have multitargeting indicator. There is going to be a 
requirement to be able to fuse information in order to have the 
capabilities that the JSTARS currently has, that I don't see 
a--any future or time commitment that that would change that in 
the upcoming years.
    Mr. Turner. Okay. Well, that was certainly validation of 
the concern. I don't know how the plan that we are being 
presented might be able to address that.
    Anyone else want to comment?
    General.
    General Ierardi. Mr. Chairman, from the perspective of the 
Joint Requirements Oversight Council and the Joint Staff, 
providing support to the warfighter is paramount in terms of 
marshalling the capabilities to support our missions around the 
world.
    There is a period where we look at this evolving threat 
that caused the JROC to ask the Air Force to review the options 
available to perform the ground moving target indicator and 
battle management command functions that JSTARS performs, and 
that work is forthcoming, some of which you will hear about 
today.
    I think there is a period here at least acknowledge your 
concern with the timeline into the future for the delivery of 
the full systems. There is--that I know, the Air Force can 
describe in greater detail--an incremental approach that does 
allow for a degradation, a graceful degradation, if you will, 
in the numbers of JSTARS platforms available to our warfighters 
in the near years while ABMS is being developed. And there is 
work to be done for sure in developing ABMS, but there is a 
plan to mitigate that risk as ABMS is developed with both 
existing platforms as well as new capabilities that can be 
brought to bear.
    Mr. Turner. General Harris and Ms. Thornton, the JSTARS 
Recap platform is being developed as a true open architecture, 
open mission systems platform, the same as what the Air Force 
is stating it's trying to achieve for ABMS concepts. If 
Congress were to provide sufficient funding to continue the 
JSTARS Recap program, could you integrate this system as the 
foundation for Increment 1 of the ABMS concept? General.
    General Harris. Chairman, yes. Simple answer to that is we 
would be able to increment and bring it into Increment 1 or 2. 
Two is basically the timeframe you are looking at by the time 
we would have this developed.
    Mr. Turner. Ms. Thornton, do you want to comment?
    Ms. Thornton. Yes. I will just add to that, we are able to 
do that from a technology standpoint. Certainly, again, it is 
available in the Increment 2 timeframe, not the Increment 1 
timeframe.
    Mr. Turner. Ms. Tsongas.
    Ms. Tsongas. Thank you.
    I would like to just visit the process that brought us to 
this place with this sort of abrupt change of direction. So as 
we know, 7 years ago, the Air Force conducted the analysis of 
alternatives to determine what capabilities a JSTARS 
replacement would need and what kinds of threats the aircraft 
would likely encounter. And since that time, the Air Force has 
invested hundreds of millions of taxpayer dollars and countless 
staff hours from some of our brightest minds to build a next-
generation JSTARS capability, an effort built around 
conclusions that were drawn in 2011. Now those conclusions have 
been reexamined, and Congress is being asked to cut our losses 
and pursue a different and technologically challenged 
alternative, with time risks, cost risks, and unknown cyber 
vulnerabilities.
    So my point is this: There has to be a process in place to 
make sure that taxpayer dollars are being spent as wisely and 
efficiently as possible and that we in Congress can trust that 
process. So, General Harris, my question is twofold: Did the 
Air Force simply get the 2011 AOA wrong? And if so, how can we 
go about correcting the AOA process in the future to make sure 
we are spending taxpayer dollars on the capabilities we need 
and that it is a process that brings--when it brings forth its 
decisions we in Congress can trust what was done in a forward-
looking way?
    General Harris. Yes, ma'am, that is a great question. I 
wouldn't say in 2011 we got the analysis of alternative studies 
wrong; we just looked at and underestimate the pace of change 
and the threats that come up. We talked through that AOA 
multiple threats that exist today that were forecast to be here 
in 2024 and 2028. So that threat has accelerated quickly. And I 
think the committee here will recognize why that has happened 
based on some of the pictures we have shown in our past 
engagements from that.
    When it comes to us in the process, we do intend to move 
our acquisition process and our requirements process faster 
than what we have been doing, which will allow us to be able to 
get ahead of the technology piece. So the money that we 
invested in the JSTARS Recap effort, those radars, the 
technologies we are pulling out of that, we think will still 
benefit us in Increment 2 and Increment 3 as we move forward. 
So it was not money wasted.
    Ms. Tsongas. So what you are suggesting is that you didn't 
anticipate the pace of change--or the pace of evolution among 
our near peers. And my question would be there have to be 
people out there who could have been brought into this process, 
who could have better assisted the Air Force in thinking 
further out, or a better understanding that who are in a world 
in which change comes much more quickly who knew this had the 
potential to move rather quickly, more quickly than you were 
thinking about.
    And so how in the future do you be sure you are casting a 
wide net to get that kind of thinking at the table?
    General Harris. Okay. So we do have a new senior 
acquisition leader in our department who leans forward in that 
direction. And as we heard testimony from him yesterday in a 
different committee, he is committed to that process. So I 
think you will see those changes coming up, and it is a change 
in the way we have done business in the past.
    We certainly don't intend to start down one direction and 
have abrupt changes, but we have a National Defense Strategy 
that has changed. In 2011, we weren't talking about peer 
threats. We didn't have a strategy that said you need to focus 
on the high end of the combat. We were focused on winning 
today's fight in a COIN [counterinsurgency] type of an 
environment where this airplane was well developed and 
deserved.
    So I would say that while we may not be keeping with the 
pace of change, we are trying to change that, rather than 
continue to invest money in the old way of doing things; that 
15 years from now, we will have the same capability and a 
JSTARS Recap aircraft that we have today, but it will only work 
in a small portion of the globe, rather than our Increment 3 
that we are trying to get at to span the globe.
    Ms. Tsongas. Question for you, General Ierardi. The 
original reason for the JSTARS aircraft was to enable Air Force 
and Army coordination for attacking targets deep behind enemy 
lines. That mission still seems very relevant in the context of 
possible conflicts with North Korea and Russia where the U.S. 
Army and our allies will likely face large enemy ground forces.
    The Air Force's original AOA certified by the Joint Staff 
determined that joint battle command with the U.S. Army onboard 
the aircraft itself was still an important requirement. Is that 
no longer the case? And how will the Air Force integrate the 
ability to attack well behind enemy lines with the Army under 
the proposed JSTARS alternative?
    General Ierardi. Thank you, ma'am. The Army certainly 
should expect the delivery of the capabilities required for it 
to operate in a wartime environment against a near-peer or a 
peer competitor in a high-intensity action. That, we expect 
will be delivered by the Air Force, by the joint force, the 
collection of assets that are available to provide commanders 
what they require.
    So the JSTARS as it was envisioned to provide those 
capabilities in a contested environment as we have described, 
that has changed. Indeed, we can say--the intent would be to be 
able to deliver under ABMS an even greater level of support to 
warfighting commanders in contested environments than they 
might otherwise receive as we watch the threat evolve in places 
like--as you have described.
    Ms. Tsongas. Thank you. I yield back.
    Mr. Turner. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    This is, I guess, General Harris and General Dolan--you 
know, our thirst for intel can never be quenched. And we 
currently cannot meet all the ISR requirements for all of our 
combatant commands, yet we are talking about lessening that 
capability. That just absolutely makes no sense to a dumb 
grunt.
    We certainly need to shift our reliance on relatively 
indefensible surveillance systems, as state competitors or 
peers like Russia and China, you know, challenge that. But we 
also, our bombers in World War II didn't have the capability of 
defending themselves on deep bombing missions, but we didn't 
discontinue bombers because they weren't survivable; we put 
fighters with them to make them more survivable. We have lots 
of things in the Army that are not survivable by themselves, 
but we place protection around them based on the criticality of 
that asset.
    So I am very disappointed that we would even think about 
reducing our ISR capabilities without first fully replacing 
that when we already have a shortfall that is critical in all 
areas of the globe. And so, you know, we have gone through this 
with the U-2. We have gone through it with the A-10s for us 
ground guys with the Air Force where they didn't want to use A-
10s because they are not survivable in air-to-air, and they are 
not. But at the end of the day, nothing is better for that 
grunt on the ground than an A-10 killing those tanks. Because 
an F-16 doesn't do that and an F-35 doesn't do that, they have 
different missions, but an A-10 is still critical to killing 
those tanks on the ground, which is what us Army guys care 
about.
    And so how is the planned cancellation of JSTARS Recap 
going to affect the ISR requirements of warfighters on the 
ground? And has the Air Force discussed this decision with the 
Army and Marine Corps? And if so, what do the Army and Marine 
Corps think about this?
    Now, either General Harris or General Dolan, either one.
    General Harris. Sir, I would be happy to start that, and if 
General Dolan has something to add, he is more than welcome to 
participate.
    So, sir, we have spoken with the Army and the Marine Corps, 
and we are also speaking with each one of the combatant 
commanders to make sure. And to this point, they have all 
agreed with our way ahead. Mostly because the fights we are 
most concerned about for our soldiers and our Marines that are 
on the ground are these highly contested fights in these areas 
where we may not have air superiority over the top of them on 
day one. The JSTARS Recap does not do that for us. It would be 
pushed out of that same fight.
    You talk about adding fighters to our bombers in World War 
I and II to make them survivable. Completely agree. But a 
fighter with the JSTARS doesn't help when it is multiple SAMs 
[surface-to-air missiles] coming out and there is nothing the 
fighter can do about it from that perspective, even if it is a 
fifth-gen [generation] fighter attacking other missiles that 
are long range and exceed the radar capabilities of the JSTARS 
Recap. It still doesn't change that situation.
    If there is a reduction--and right now, we are under-
promising and intend to over-deliver--I don't think it will be 
long in our ISR capability. And when we do complete INC 3 
hopefully well before the time that is laid out in the plan 
now, and I think we will see more of that in our closed 
session, you will see much more capacity to get after ISR 
across the globe in this GMTI type of role, rather than in two 
or three narrow orbits in CAPs [combat air patrols].
    Mr. Kelly. So we are not going to have a gap, because I 
point this out: If they are targeting at JSTARS as opposed to 
some other asset, that shows the value of that JSTARS to our 
guys on the ground that they would target--because we only go 
after high-value targets. So the fact that they would take a 
JSTARS out of the sky as opposed to something else shows the 
value it has to the guys on the ground.
    And so I just want to make sure and I want you guys, 
regardless--I don't care which system we got to. Here is what I 
do care, is that we never have a gap where we don't have the 
ability to get that ISR to the combatant commanders. And can 
you all tell me that is what we are going to do if we do this, 
we are never going to lose capability that we currently have, 
whether contested or not contested?
    General Harris. No, sir. We are not making that promise. 
Even with today's fleet, there will be a gap. There is nothing 
we can do about it because of the way the threat has 
accelerated.
    If it requires us to have soldiers on the ground that are 
in this battle space, we will put airmen up there. Our approach 
to this is to put fewer airmen at risk so that we can get this 
mission done. We have multiple other sensors--some manned, some 
unmanned--that get after this. So we are intending to minimize 
the gap and make sure that when we are done, we actually 
provide a better capability in both contested and uncontested 
than where we are heading with the recap.
    Mr. Kelly. I understand. But when those airmen and airwomen 
are not at risk, those guys on the ground, those soldiers and 
Marines are at risk to prevent that risk to Air Force people, 
and we just can't accept the lack of ISR. And I hope you guys 
will really rethink this, because we really cannot accept a gap 
in our capabilities to conduct ISR until we have a replacement. 
We shouldn't chase shiny objects until we have one that works. 
And I just say, we cannot afford at this critical stage--we 
still have COIN fight going on, and we can't afford to just 
fight the peer fight; we have to fight them both.
    And, Mr. Chairman, my time is out, but I yield back.
    Mr. Turner. Thank you. Ms. Rosen.
    Ms. Rosen. Thank you, Mr. Chairman, Ranking Member, and our 
guests for being here today.
    I would like to switch the conversation a little bit to the 
MQ-9. I represent southern Nevada and, of course, we are proud 
to have Creech Air Force Base that conducts those airborne ISR 
operations, well, actually, Nellis and Creech in Nevada 
fighting the global war on terrorism. So I know that the MQ-9 
have been operating at surge capacity levels for over 15 years; 
obviously, not an end in sight, as we need intelligence more 
and better each and every day.
    Our current fleet is about, is 268. I know you are asking 
for 29 more, putting us up to 297 MQ-9s. So what I would like 
to know is what is the current status of the MQ-9 enterprise? 
What are your plans to normalize those operations in order to 
reduce us from surge operations to our steady-state sustainable 
operation going forward?
    General Harris. Ma'am, I would be happy to start with that. 
Thank you to the outstanding airmen that are supporting this 
mission. And while they may not be present over the 
battlefield, they are doing everything they can to have the 
effect they are looking for in our COIN environment.
    Our effort, as you know, this past week, we have flown our 
last MQ-1 in combat from a sortie perspective. We are now to a 
fully 100 percent MQ-9 fleet, and that brings a better 
capability and capacity, rather than being stuck with that MQ-1 
and not ever transitioning to something that is new. So much 
like what we are trying in the GMTI environment, there is a 
better way to do this. To help the airmen that have been at 
this surge capacity for 15 years and not getting the credit 
because they weren't seen as being present on the battlefield, 
we have--I am sorry, started our CPIP [Culture and Process 
Improvement Program] effort to take care of those airmen that 
are deployed at home, that are working 6\1/2\, 7 days a week in 
this combat environment and still have all the home things that 
are associated with that with none of the benefits of returning 
to a country that is grateful for the work that they are doing.
    We are thankful to say that we have opened up and said we 
are going to have more locations, so some of them like to have 
an option other than just being in the desert there in Nevada. 
Very much happy to be there myself, but we have opened up Shaw 
as the next location for them to give them opportunities to 
move about and continue a normal Air Force career while they do 
this fantastic mission.
    We have also fully manned the MQ-9 RTU [Reinforcement 
Training Unit] so that we are able to get more aircrew out, and 
we are increasing the crew ratio so that these flying airmen 
get some time off. It is work hard for 2 months on this, then 
be able to take a month to train, and we haven't been able to 
do that in the past and we are starting to make progress in 
that. So it is moving well for the MQ-9 fleet.
    Ms. Rosen. I really thank you for that, because as we go 
out there and talk to the airmen and women who are working 
there, it is stressful in its own way, even though they are not 
actually there. And I appreciate that.
    I have one more question. Actually, I would like to talk a 
little bit about the termination of the software development 
modernization contract that we had for Air Force operation 
centers, known as AOC [Air Operations Center] 10.2.
    So what do you feel, Ms. Thornton, were the root causes of 
the failure of the program? And how can we develop software 
that we can utilize, be more agile and nimble, dynamic, the 
next environment?
    Ms. Thornton. Thank you, ma'am, for that question. The AOC 
10.2 program, as you know, was canceled. There were schedule 
issues. There were challenges in trying to deliver a lot of 
capability all at once, rather than looking at it more 
incrementally and how we could make improvements rapidly to 
support our users in need. So we are now embarking on AOC 
Pathfinder, which started in August of 2017. And with that 
Pathfinder we are using modern software and hardware, using 
cloud capability, as well as taking advantage of the way the 
commercial world develops software. You know, the Facebooks, 
the Googles, the Amazons, they know how to do it well, and so 
we are taking advantage of what they have learned to be able to 
deliver quality software, very user friendly, very quickly, and 
securely. So that program is going very well, the Pathfinder.
    By this time, we were expected to have delivered one 
capability, which was the critical capability for dynamic 
targeting and, in fact, we have delivered four capabilities to 
Al Udeid [Air Base]. So that has been a great benefit to those 
users out there. They have sat side by side with the developers 
and given feedback. So as we continue this effort, we expect to 
expand it out, and it will allow us to actually sunset our 
current 10.1 Air Operation Center sooner than we would have 
under the old program.
    So we are seeing a lot of successes. We are taking lessons 
learned in a way that we can apply to other programs 
successfully.
    Thank you.
    Ms. Rosen. Fantastic. Thank you. I yield back.
    Mr. Turner. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. And I want to thank you 
all for being here today. As a retired ISR guy and an 
electronic warfare person, these are exciting conversations.
    So I know you have got a challenge. We--each COCOM 
[combatant command] is asking for more assets than we have in 
the Total Force, essentially. It is like coming to deliver 10 
gallons of water when you have got 1 gallon of water with you. 
So I know it is a very big challenge.
    So I want to first start off by recognizing General Dolan 
and thanking the OSD [Office of the Secretary of Defense] and 
the Joint Staff team for the new organizational structure that 
we have put in for ISR. I understand the charter that General 
Mattis put out is very detailed, and we appreciate it. We think 
it is, you know, a great work.
    In the last NDAA, we put in multiple reports that we were 
requesting from the Joint Staff or OSD. And there are four of 
them that were due on 1 March that we are still waiting on. I 
just want to point them out so you can push them along, if you 
would.
    We did ask for a joint force sufficiency assessment for 
ISR. How much ISR do we really need? We would like to get a 
better handle for what you think that is. Also for the Joint 
Staff, an implementation, a strategy plan to establish common 
standards and management procedures for MTI [moving target 
indicator] exploitation so that we can take MTI and standardize 
all those platforms and the data that comes off.
    And when I was working, when I was in the Air Staff, it was 
the fifth-generation sensor. So how do we get that data off the 
F-35 and other fifth generation? And how do we exploit it 
quickly back at the Air Operations Center so we can get it back 
to the warfighters?
    And the fourth one is getting the steady-state requirements 
for the RPA [remotely piloted aircraft] line, for beyond-line-
of-site, wide-area motion imagery. And, General Dolan, I will 
just give you a chance, you may not know where those four are 
at, but----
    General Dolan. Well, Congressman Bacon, first off, I want 
to thank you for your continued service here. Your background, 
obviously, with the committee is very helpful. It is helpful 
for the enterprise, it is helpful for the Department.
    Mr. Bacon. I like being an advocate.
    General Dolan. And so I want to thank you for that.
    With regard to the reports, we would definitely get back--
--
    Mr. Bacon. Okay. Thank you.
    General Dolan [continuing]. In a timely manner to get back 
here with you on that.
    You touched on a lot of the innovation that the Department 
is trying to take on. And as you know, when you take a look at 
the joint solution, we have to look beyond just platform. We 
have to look at a whole-of-system solution. And I think you 
understand that as we put thought, energy, and resources to 
that, that is going to make us better down the road, because we 
will never meet 100 percent of the combatant commanders' 
requirement.
    Mr. Bacon. All right.
    General Dolan. So we have to be----
    Mr. Bacon. It is hard to meet one of them.
    General Dolan. We have to put effort towards that. You 
know, I think that with very pointed and educated look at and 
questions for us that challenge the Department is good, and it 
is going to help us stay focused.
    Mr. Bacon. Okay. Thank you, General Dolan.
    Question for you, General Harris. I think the vision for 
MTI is laudable; you are aiming high, thinking big. It seems to 
me there's two key points that we have to give confidence to 
people on. Will the current Joint STARS be able to bridge that 
gap? I mean, is it--it is struggling right now maintenance-
wise. Can it cover that gap that you are looking for to go to 
this new, you know, concept? And second part is, I think we 
just want confidence that you will get approval from the Joint 
Staff or JROC for the plan before you move beyond the Recap or 
the new Joint STARS. Thank you.
    General Harris. Congressman, great questions. If you don't 
mind, I will also come back to talk about that fifth to fourth 
project that you worked on because you had some successes to 
report.
    Yes, sir, we are confident that current JSTARS fleet, the 
E-8 fleet will have the ability to cover this gap. We have got 
the decision point in FY 2023 that allows us to use that fleet 
longer if we find that INC 2 or INC 3 are late in delivering, 
and that could extend that fleet by a few years to cover those 
gaps. So we are comfortable that we will be there and confident 
that we will be able to work this process, to include where we 
think we are headed with the JROC and their approach to it. 
Because what we have brought forward recently, we are seeing 
positive responses in both CAPE [Cost Assessment and Program 
Evaluation] and AT&L [Acquisition, Technology, and Logistics], 
now that it has broken up, the [R&E, Research and and 
Engineering] and A&S [Acquisition and Sustainment] 
organizations. And we think it won't be an issue getting this 
through the JROC process.
    So your fifth to fourth and that communication piece, that 
is part of the solution that we are looking at of making sure 
that we have both the sensors available and the communication 
to port that back. And we just recently demoed in an exercise 
in Alaska and 2 months ago in Japan with real-world aircraft as 
was in the exercise that out in the combat operational scenario 
with F-35s to F-15Cs, and it is working now. So we are happy 
with that.
    Mr. Bacon. Good, because that is a great sensor capability 
that we can get back, hopefully, to the AOC to watch the next 
wave of aircraft before those F-35s ever come back.
    One last question. I understand that we have a really good 
system for real-time MTI tracking, but then we have to go back 
and do forensics, quality-of-life studies, that there is a lot 
more challenges. Do we have a plan for that?
    General Harris. We do, sir. That is part of the process 
exploitation and dissemination that we are working through. Too 
much of what we collect right now in any ISR platform ends up 
on the floor and is never looked at again, other than just the 
initial take, and we have to fix that. Part of that is our AI/
ML, so it is artificial intelligence/machine learning, getting 
that to do things that they are much faster at computer-to-
computer than we are with the human in the loop. And as we 
continue to grow and evolve and invest in that, we expect that 
that is the technology that is not widely available now. It 
will be in the 2023 to 2025 timeframe well before it becomes a 
necessary part of this.
    Mr. Bacon. Thank you, panel.
    I yield back, Mr. Chairman.
    Mr. Turner. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair. Thank you all for being 
here today.
    The MQ-9s are essential to the State of California's 
National Guard as it utilizes aircraft during natural 
disasters, such as fires, floods, and search and rescue, as was 
the case recently in my district. Most recently, the MQ-9 was 
used to assist in the suppression of the Thomas fire, which 
devastated my district. MQ-9 is a vital ISR capability that 
provides around-the-clock situational awareness for our 
combatant commanders, but they are also essential to our Guards 
as it is a lifesaving capability for our emergency responders 
and citizens.
    However, MQ-9s are not meant to fly as a fast--as fast as 
larger aircraft. In order to more rapidly deploy the MQ-9s, a 
deployable kit capability has been identified which would allow 
the kit to be packed in a larger aircraft. Has the Air Force or 
the Army looked at the feasibility of incorporating and funding 
a deployable MQ-9 launch and recover element kit?
    General Harris. Yes, sir. We are looking at that and that 
is part of the study. The LRE [launch and recovery elements] 
that you speak about, it is a significant move when we go out 
and do that. I am not sure if the Army is looking at it from 
that perspective, because it is your Air Force that's flying 
the MQ-9s, but in similar platforms for them with their Gray 
Eagle.
    We are looking at it from that perspective, but right now, 
sir, our MQ-9s, minus a few that are available for elements in 
title 32 status, and our guardsmen are awesome at bringing that 
to the table to help when we can here stateside. We just don't 
have the capacity right now in our ability to fly additional 
lines. So the LREs are in place. We are looking at different 
plans to move those LREs, but from a deployable kit; we will 
continue to study that, but it has not risen yet to the 
priority that it is something we must fund at this time.
    Mr. Carbajal. Thank you.
    Lieutenant General, any----
    General Ierardi. On behalf of the Joint Staff, nothing else 
to add to General Harris' response, sir.
    Mr. Carbajal. Great. Thank you very much. Mr. Chair, I 
yield back.
    Mr. Turner. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And first, I would like to associate my comments with you, 
Chairman Turner, and also with Ranking Member Tsongas, with the 
concerns about the proposal. And as I have listened to the 
comments from the panel, we have an operational capability of 
the new ABMS system of 2042, if things go as planned. Is that 
correct? That is when--all right, 2042. And you plan to stand 
down all of the JSTARS by the end of 2025. That is a 17-year 
gap between the standing down of 100 percent of the fleet and 
the operational capabilities of the new system.
    I don't--I guess my question--General Ierardi, what are you 
going to do during that 17-year gap?
    General Ierardi. Sir, the notion of the Advanced Battle 
Management System is the integration of sensors and 
capabilities----
    Mr. Scott. Yes, sir.
    General Ierardi. [continuing]. To be able to deliver 
information to warfighters faster.
    Mr. Scott. Yes, sir.
    General Ierardi. So that is the intent of the ABMS, and at 
the appropriate time, in the near future----
    Mr. Scott. Sir, if I may?
    General Ierardi. Yes, sir.
    Mr. Scott. We intend to be there operational capabilities 
2042. Is that correct?
    General Ierardi. For the final operating capability, yes, 
sir.
    Mr. Scott. 2035 for first operational capability.
    General Ierardi. Yes, sir.
    Mr. Scott. And 2042 for good capacity, if you will. But 
2035 is the initial operation. If everything goes as planned, 
2035, but the JSTARS are going to stand down--the intent is to 
stand them all down by 2025, you have got a 10-year gap where 
you have nothing.
    General Ierardi. Sir, I believe that the incremental 
approach that the Air Force is taking will yield capabilities 
along the way; that is the plan. The JROC will have an 
opportunity to review that plan in the near future.
    Mr. Scott. What platform do they intend to use to deliver 
that?
    General Ierardi. A number of platforms would be netted 
together to produce the outcome, sir.
    General Dolan. So, Congressman, if I will, I will say from 
a--you talk about the gap, you talk about where we are at now 
and how we are going to cover down, if you will, between now 
and 2035, JSTARS is, with respect to the moving target 
indicator, we have got five--from a joint force, we have five 
platforms that crosses multi-services that will come across 
from there.
    Mr. Scott. If you did not need the new JSTARS, then why did 
you request $417 million for the JSTARS less than 12 months 
ago?
    General Dolan. I will yield to the Air Force on that 
question.
    General Harris. Sir, because we are still in the study and 
we didn't have a National Defense Strategy at the time, it was 
directing us to focus elsewhere and put your highest priorities 
in that conventional plate.
    And, sir, to your question, the JSTARS stand-down that we 
are talking about in that timeframe is only 10 percent to 15 
percent of our GMTI capability. We will still continue to 
provide that, as was mentioned, with the other platforms, to 
include the Global Hawk Block 40 and the MQ-9 with its GMTI 
capability, in addition to the assets that are in the other 
services. So it is----
    Mr. Scott. And you will be pulling those. Are those assets 
currently being used?
    General Harris. Yes, sir, they are.
    Mr. Scott. So which fights do you intend to stop using them 
in?
    General Harris. We will use them less in our low-intensity 
counterinsurgency fights. And the intent now as we bring these 
forward into a higher combat level from the perspective of 
using them in contested environments, if we must be there to 
support our teammates on the ground. It also brings the sensors 
that allow us to not only see the target and to pass that 
information and share it, but to take action on it from a 
combat perspective.
    Mr. Scott. If you assume that you are going to have to 
maintain the JSTARS to fill the capacity until the operational 
capacity is there for the new Advanced Battle Management 
System--and I am not opposed to development of the new Advanced 
Battle Management System; I want you to understand that--what 
is the difference in the cost of recapitalization--of the 
recapitalization versus the maintenance of the current JSTARS 
fleet?
    General Harris. Sir, the recapitalization bill is about 
$6.5 billion for the new system to bring in the JSTARS Recap 
program. And are you asking them to keep the cost difference 
for the current fleet of E-8s?
    Mr. Scott. My point is that the cost of the 
recapitalization versus the cost of maintaining the existing 
JSTARS fleet, there is not that much difference in the two. But 
the capabilities are very different. I would just--I don't 
know, I don't understand the logic that the Air Force has used 
with regard to this decision. I think that y'all have made a 
decision and you are trying to back into it. I again want to 
associate myself with the comments of both Mr. Turner and Ms. 
Tsongas. It is--I do not understand how the Air Force could 
have requested almost half a billion dollars about 12 months 
ago for the JSTARS Recapitalization program and then turned 
around and said we don't need it. So we just wasted that half 
billion dollars.
    With that said, I will yield the remainder of my time.
    Mr. Turner. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Let's switch topics. Some of the materials that were handed 
to us right before this in regards to the U-2--and 
surprisingly, but good to hear that the U-2, with proper 
updates, can last 50 more years and be effective, and maybe 
even longer. So can we--as part of our fleet.
    Can we just have a little more details on what kind of 
investments are needed to ensure the health of the U-2 program? 
And we will start left to right, if that works.
    Lieutenant General.
    Ms. Thornton, would you like to take this?
    Ms. Thornton. Yes, I will take it.
    Mr. Gallego. Thank you.
    Ms. Thornton. So we are investing in working through 
diminishing manufacturing sources. Many of the sensors are--
there are diminishing resources for that. We are looking at our 
ejection seats and how we want to make--modernize them and make 
them safer, so we continue to do that. We are also--as you 
know, the U-2s are pretty much rebuilt every 7 years, so right 
now, they have a life out to 2055, but we are also investing in 
a structural study to look at taking that out to the full 
75,000-hour life, which would take them out to 2100. So pretty 
far out there.
    So again, we, as a part of the next-generation ISR 
dominance flight plan, there will be a high-altitude annex that 
we will describe in a little more detail, we expect to deliver 
that this spring, all of the different capabilities that will 
be looking out for U-2 and the whole high-altitude fleet in 
incorporating those capabilities. But we are continuing to 
modernize the U-2 and expect that to continue to be a valuable 
asset to the Air Force for some time to come.
    Mr. Gallego. Yes.
    General Harris. Yes, sir. The NDAA that we have from FY 
2017 tells us that we can't do anything to retire the U-2 until 
we have shown the Global Hawk Block 40 reach parity with it. So 
we are also making similar investments in the Global Hawk Block 
40, I'm sorry Block 30 to get after this effort. So we are 
continuing to move and provide additional capability and 
capacity from what the original plans were to retire the U-2, 
but that is our expectation at this time.
    From an air perspective, nothing provides the altitude 
associated with the U-2 operations. The Global Hawk can see 
targets for a longer period of time. So each one of these 
platforms brings their different strengths, and we will 
continue to fund both while we can.
    General Ierardi. The only thing I would add is that the U-2 
is a part of an important set of capabilities that we will 
employ. And I don't have anything else to add to their 
responses. Thank you, sir.
    Mr. Gallego. Thank you.
    General Dolan. Congressman, I will tell you, you know, from 
someone who has to fill requirements, it is the capability of 
what the platform brings, in this case with the U-2, with the 
capability it brings right now until there is another 
capability that is brought up that the Air Force identified. We 
are going to actively employ the U-2 to its fullest right now 
in all theaters. And you can see now that it is across the 
world we are going to continue to employ it.
    Mr. Gallego. From some of the briefings I have had, it is a 
great platform that really has served this country well. Thank 
you, and I yield back.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony here today and for your service to 
the Nation. Thank you.
    I know that we touched on this processing question. Mr. 
Bacon raised this, but I am going to dive into it a little 
deeper. Although we know we don't have enough ISR platforms to 
meet combatant commander requirements, we still do collect 
enormous amounts of data, all of which take time to analyze. So 
processing, exploitation, and dissemination capacity is the 
primary limiting factor, as I see it, that we face in terms of 
making this massive amount of data actually useful.
    So how do we more fully use artificial intelligence and 
machine learning to more quickly sift through the data? And how 
will that allow you to more strategically allocate the limited 
analyst manpower that you have? And what types of gains do you 
see possible with increased use of machine learning? And then 
finally, do you think that we will eventually see a reduced 
need for ISR, given that machine learning will better focus our 
collection efforts?
    General Harris. Thank you, sir. Great questions. And that 
is one of the areas where we see some of our most promising 
efforts getting after artificial intelligence to help reduce 
the manpower burden associated right now with the process, 
exploitation, dissemination of our intel.
    As we said, it is less than 20 percent of what we collect 
actually gets significant analyst time to help us come back 
with that. So we are working with several groups within our 
DCGS enterprise, our distributed common ground system 
enterprise, to make sure that they are tagging the data that 
they see, that we can then turn back and run through algorithms 
within the machines to help them learn so they can come back 
later and tell us, that is a vehicle with wheels, that is a 
vehicle with a track, to help us with those important parts.
    What we really think is that as we move forward, we can 
have the machines coming back telling us, look here for an 
analyst, look here for an analyst, rather than trying to scan 
the entire time of FMV. And we think we will see significant 
improvements in that. And, again, these are fantastic airmen 
that are working.
    So I don't think we will do away with ISR; it is how we get 
that ISR. In the fifties, we collected the same amount of ISR 
that is exquisite that we do today, but it was probably half of 
what was available at the time. Now, in today's information 
age, collecting about that same amount of exquisite ISR, it is 
only a percent of what is actually available across the 
spectrum.
    So we are actually trying to open up and use publicly 
available information to help us gather the information that we 
need as a Nation to keep the lead in the technology advances 
that we have.
    General Dolan. Congressman, I will just add that it is just 
not a service-centric project that General Harris is talking 
about. It is actually a Department-wide initiative to look at 
it, because we have to use automation and intelligence--
artificial intelligence in order to go through big data.
    The Department has actually formulated a plan to go forward 
with that. And not only does it come back on the PED 
[processing, exploitation, and dissemination] that you 
described, but it is also going to come back in the manpower 
and the crews that you need to do that. So there is a huge 
manpower piece, not only from an hour, man-hours perspective, 
but trained specialists and linguists that you can save also in 
doing that. And so it is a very important initiative across the 
Department.
    Mr. Langevin. Thank you.
    Ms. Thornton. Sir, may I add to that, too? In the DCGS 
program, we have been, similar to our Air Operations Center, we 
have been moving to an open architecture. We have done three 
pilots to date. And in our FY 2019 request, you will see about 
289 additional funds requested to implement that architecture 
across all 27 of our DCGS sites.
    And what that does for us is then allow some of these 
applications and capabilities that General Harris and General 
Dolan talked about, because we have got the right commercial 
hardware-software baseline to work from to allow for that 
machine learning and artificial intelligence to be developed in 
that PED enterprise.
    Mr. Langevin. Okay. Thank you all for that.
    So most of the ISR that we are flying right now are in 
areas where we maintain air dominance. Would our current mix of 
ISR meet the capability requirements if we needed to fight in 
contested environments? And how are we hardening our systems to 
make sure that they are protected against cyber or electronic 
warfare attacks by sophisticated threats?
    General Dolan. Congressman, I will start off. From a 
requirements standpoint, the answer is no. And that is a 
priority that the Department is looking at. And I will yield to 
my colleagues to give more detail.
    General Ierardi. I would only briefly add, sir, that that 
is one of the main reasons why, in fact, with JSTARS we feel 
like we have got to review the recap program to ensure that we 
are able to operate in those high-intensity environments that 
you described.
    General Harris. Thank you, sir. And we are working through 
both the cyber protection, but also the physical defenses that 
are coming up, which is why we think we need to expand beyond 
the air domain for our ISR and increase our capability and 
capacity in all domains.
    Mr. Langevin. Thank you. I know my time has expired. I have 
additional questions that I will submit for the record, but 
thank you for the answers and thank you again for your service 
to the country.
    I yield back.
    Mr. Turner. Thank you all for your testimony.
    This subcommittee will now reconvene in Rayburn 2337 for a 
classified presentation by our witnesses.
    Also, we have votes that are to occur at like 3:25. To the 
extent that people might be able to rapidly move to 2337, I 
would appreciate it.
    [Whereupon, at 3:06 p.m., the subcommittee proceeded in 
closed session.]

     
=======================================================================

                           A P P E N D I X

                             March 15, 2018

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2018

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2018

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. BACON

    Mr. Bacon. Secretary Mattis' assignment of responsibilities and 
authorities for the new Joint ISR management organization required in 
the FY18 NDAA represents an important evolution for the Department of 
Defense. To assist the subcommittee in ensuring this new structure has 
the resources necessary to succeed, 1) What is the organizational 
structure of the J-32 and associated Chairman's Controlled Activity for 
Joint ISR Management? 2) What is the current authorized manpower for 
these organizations for officer, enlisted, civilian and associated 
contractors, broken out by grade and service where appropriate? 3) Does 
the new organization have a dedicated source of funding? If so, what is 
it and what is its budget for FY18? 4) What is the current status of 
development and fielding of automated tools to enable management of our 
large and increasingly complex joint ISR enterprise? Specific areas of 
interest include tools that support joint collection management, ISR 
operations management, mission reporting and effectiveness analysis, 
and modeling and simulation.
    General Dolan. 1) What is the organizational structure of the J-32 
and associated Chairman's Controlled Activity for Joint ISR Management? 

    See attachment A ``J32_Organization_Manpower.pdf''
    [The attachment referred to was not available at the time of 
printing.]
    2) What is the current authorized manpower for these organizations 
for officer, enlisted, civilian and associated contractors, broken out 
by grade and service where appropriate?
    See attachment A ``J32_Organization_Manpower.pdf''
    3) Does the new organization have a dedicated source of funding? If 
so, what is it and what is its budget for FY18?
    Upon completion of the transition from USSTRATCOM to Joint Staff on 
1 October 2018, J32-/JISROC CCA has two dedicated sources of funding 
starting in FY19: PE 32222F Civ Pay US Air Force is the Executive Agent 
PE 92222F O&M US Air Force is the Executive Agent In FY18, J32/JFCC 
ISR's budget was approximately $5.7M.
    4) What is the current status of development and fielding of 
automated tools to enable management of our large and increasingly 
complex joint ISR enterprise?
    Specific areas of interest include tools that support joint 
collection management, ISR operations management, mission reporting and 
effectiveness analysis, and modeling and simulation. The Combatant 
Command Intelligence Information Technology (CCIIT) Enterprise 
initiative, led by USD(I), is addressing chronic materiel and non-
materiel gaps and improving enterprise management to align and 
modernize Combatant Command intelligence capabilities. The first 
materiel solution, based on validated CCIIT enterprise requirements and 
resourced beginning in Fiscal Year (FY) 2019, will address shortfalls 
in ``Integrated Mission Management''--the integration of currently 
siloed capabilities supporting requests for Information (RFI), 
Collection Management (CM), and Intelligence, Surveillance & 
Reconnaissance (ISR) Mission Management (MM). DIA will deliver the 
integrated mission management (IMM) capability using agile development 
methodology, incorporating input and guidance from the functional 
managers for CM and MM, the Joint Staff J26 and J32, respectively. IMM 
will deliver a unified workspace to manage intelligence requirements 
and products, integrating data sources via a workflow tracking and 
monitoring dashboard. The current state is siloed systems which provide 
functions aligned to their own data, requiring users to access multiple 
tools to accomplish the mission. The future state is a presentation 
layer which provides a single point of entry, while an application 
layer aggregates data to the dashboard, providing access to IMM 
functionality of individual systems. Over time, rationalization will 
remove duplicative functionality and non-authoritative data.
    Capability Drops (CD).
    <bullet>  CD-1 is projected in the first quarter of FY2019 and will 
provide an agile sprint plan and proof of concept.
    <bullet>  CD-2 is projected in the first quarter of FY2020, focused 
on the design and development of IMM Workflow Data Services for 
tracking and monitoring, and will implement information discovery 
across multiple intelligence disciplines.
    <bullet>  CD-3 is projected in the fourth quarter of FY2021 and 
deliver access to data from additional data sources, design and develop 
end-to-end collection and Processing, Exploitation & Dissemination 
(PED) service by integrating with existing systems and new systems, 
obtain IMM Final Operating Capability (FOC), and capture FOC lessons 
learned.
    <bullet>  CD-4 is projected in the fourth quarter of FY2021 and 
will develop Modeling and Simulation Capabilities, integrate tipping 
and cueing, and implement cross-domain information sharing 
capabilities.
    Mr. Bacon. Please provide details on the USAF's current capability 
and capacity to provide for the processing, exploitation and 
dissemination (PED) and forensic analysis of Moving Target Indicator 
intelligence. In your response please provide specifics on: 1) The 
current number of USAF personnel trained to conduct the analysis and 
exploitation of MTI intelligence; 2) How the AF trains and certifies 
it's personnel to perform PED and forensic analysis of MTI 
intelligence; 3) The current suit of tools used to assist USAF 
personnel in the performance of PED and forensic analysis of MTI 
intelligence; 4) Details on the portions of the USAF FY19 budget 
request that address resource requirements for the performance of PED 
and forensic analysis of MTI intelligence to include personnel, RDT&E, 
procurement, and operations and maintenance accounts and programs; and 
5) The USAF strategy to increase its capability and capacity to perform 
PED and forensic analysis of MTI intelligence associated with the 
growth and diversification of MTI sensors as part of its ABMS proposal.
    General Harris. [The information was not available at the time of 
printing.]
    Mr. Bacon. The F-35's onboard sensors provide an asymmetric 
advantage to other F-35s in flight, but I am concerned about the 
ability of the F-35A to share the information it is capable of 
collecting with other users. Questions: 1) What capability/capacity 
does the F-35A Block 3F have to store and record information from each 
of the F-35A's active and passive sensors? 2) Does the F-35A Block 3F 
have a post-mission data recovery architecture to allow sensor and 
mission data to be sanitized and passed on to other joint users, U.S. 
national intelligence agencies and international partners? 3) What are 
the USAF's current Block 4/C2D2 requirements to record and share F-35A 
sensor data, both inflight and post-mission, and when does the USAF 
anticipate fielding this capability? 4) When will the F-35A have to 
ability to pass targeting information to support the following joint 
force missions: Inflight target cueing for Army long-range fires? 
Inflight target cuing for Navy TLAM strikes? Inflight imagery transfers 
to deployed joint special operations forces? Inflight and post mission 
electronic order of battle (EOB) updates to the appropriate national 
intelligence agencies and integrated broadcast services?
    General Harris. [The information was not available at the time of 
printing.]
    Mr. Bacon. As the USAF program of record for multi-intelligence 
processing, exploitation and dissemination (PED), 1) How does the 
Distributed Common Ground System (DCGS) support the planning, 
collection, processing, analysis, and dissemination of intelligence 
collected by the RC-135 fleet? 2) Does AF DCGS provide tools and 
enterprise capabilities required to support management of information 
collected by RC-135 baseline sensors and quick reaction capabilities 
like it does for other ISR platforms like U-2, RQ-4 and MQ-9? If not, 
why not and does the AF have a plan to integrate PED mission 
requirements for all AF ISR platforms? 3) Does AF DCGS provide PED 
crews the ability to monitor secure radio channels and provide secure 
communications with distributed crews who operate remotely operated 
systems like the RQ-4, and MQ-9, similar to what exists for the U-2? Is 
there a modernization plan to provide secure crew communications to 
link all USAF distributed ISR operations crews?
    General Harris. [The information was not available at the time of 
printing.]
    Mr. Bacon. Please provide details on the USAF's current capability 
and capacity to provide for the processing, exploitation and 
dissemination (PED) and forensic analysis of Moving Target Indicator 
intelligence. In your response please provide specifics on: 1) The 
current number of USAF personnel trained to conduct the analysis and 
exploitation of MTI intelligence; 2) How the AF trains and certifies 
it's personnel to perform PED and forensic analysis of MTI 
intelligence; 3) The current suit of tools used to assist USAF 
personnel in the performance of PED and forensic analysis of MTI 
intelligence; 4) Details on the portions of the USAF FY19 budget 
request that address resource requirements for the performance of PED 
and forensic analysis of MTI intelligence to include personnel, RDT&E, 
procurement, and operations and maintenance accounts and programs; 5) 
The USAF strategy to increase its capability and capacity to perform 
PED and forensic analysis of MTI intelligence associated with the 
growth and diversification of MTI sensors as part of its ABMS proposal.
    Ms. Thornton. [The information was not available at the time of 
printing.]
    Mr. Bacon. The F-35's onboard sensors provide an asymmetric 
advantage to other F-35s in flight, but I am concerned about the 
ability of the F-35A to share the information it is capable of 
collecting with other users. Questions: 1) What capability/capacity 
does the F-35A Block 3F have to store and record information from each 
of the F-35A's active and passive sensors? 2) Does the F-35A Block 3F 
have a post-mission data recovery architecture to allow sensor and 
mission data to be sanitized and passed on to other joint users, U.S. 
national intelligence agencies and international partners? 3) What are 
the USAF's current Block 4/C2D2 requirements to record and share F-35A 
sensor data, both inflight and post-mission, and when does the USAF 
anticipate fielding this capability? 4) When will the F-35A have to 
ability to pass targeting information to support the following joint 
force missions: Inflight target cueing for Army long-range fires? 
Inflight target cuing for Navy TLAM strikes? Inflight imagery transfers 
to deployed joint special operations forces? Inflight and post mission 
electronic order of battle (EOB) updates to the appropriate national 
intelligence agencies and integrated broadcast services?
    Ms. Thornton. [The information was not available at the time of 
printing.]
    Mr. Bacon. As the USAF program of record for multi-intelligence 
processing, exploitation and dissemination (PED), 1) How does the 
Distributed Common Ground System (DCGS) support the planning, 
collection, processing, analysis, and dissemination of intelligence 
collected by the RC-135 fleet? 2) Does AF DCGS provide tools and 
enterprise capabilities required to support management of information 
collected by RC-135 baseline sensors and quick reaction capabilities 
like it does for other ISR platforms like U-2, RQ-4 and MQ-9? If not, 
why not and does the AF have a plan to integrate PED mission 
requirements for all AF ISR platforms? 3) Does AF DCGS provide PED 
crews the ability to monitor secure radio channels and provide secure 
communications with distributed crews who operate remotely operated 
systems like the RQ-4, and MQ-9, similar to what exists for the U-2? Is 
there a modernization plan to provide secure crew communications to 
link all USAF distributed ISR operations crews?
    Ms. Thornton. [The information was not available at the time of 
printing.]

                                  [all]
</pre></body></html>
